    PROCURING    FUEL AND GROUND HANDLING SERVICES
                 AT COMMERCIAL AIRPORTS



Report Number 9% 189                       August 18, 1998




             Office of the Inspector General
                 Department of Defense
  Additional    Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or FAX (703) 604 -8932 or visit the Inspector
  General, DOD, Home Page at: WWW.DODIG.OSD.MIL

  Suggestions    for Future Audits

  To suggest ideas for or to request fkture audits, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support Directorate
  at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
  can also be mailed to:

                OAIG-AUD (ATTN: APTS Audit Suggestions)
                Inspector General, Department of Defense
                400 Army Navy Drive (Room 801)
                Arlington, Virginia 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-4098; by sending an electronic message to Hotline@DODIG.OSD.MIL;
  or by writing the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms

                         Aviation Into-Plane Reimbursement
DESC                     Defense Energy Support Center
FBO                      Fixed-Base Operator
                           INSPECTORGENERAL
                           DEPARTMENT   OF DEFENSE
                             400 ARMY NAVY DRIVE
                           ARLINGTON, VIRGINIA 22202




                                                                            August 18, 1998

MEMORANDUM          FOR DIRECTOR, DEFENSE LOGISTICS AGENCY
                        ASSISTANT DEPUTY UNDER SECRETARY OF DEFENSE
                           (MATERIEL AND DISTRIBUTION MANAGEMENT)

SUBJECT:     Audit Report on Procuring Fuel and Ground Handling Services at
             Commercial Airports (Report No. 98- 189)


        We are providing this report for your information and use. This is the second in a
series of reports on DOD management of fuels. This audit was requested by the Assistant
Deputy Under Secretary of Defense (Materiel and Distribution Management).

         We considered management comments on a draft of this report in preparing the
final report. The comments conformed to the requirements of DoD Directive 7650.3 and
left no unresolved issues. Therefore, no additional comments are required.

          We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Ms. Evelyn R. Klemstine at (703) 604-9172 (DSN 664-9172)
e-mail eklemstine@dodig.osd.mil,      or Mr. John Yonaitis at (703) 604-9632
(DSN 664-9632) e-mail jyonaitii@dodig.osd.mil.        See Appendix D for the report
distribution. The audit team members are listed inside the back cover.




                                           Robert J.‘Lieberman
                                        Assistant Inspector General
                                                for Auditing
                        Office of the Inspector General, DOD

Report No. 98-189                                                          August l&l998
  (Project No. 7LG-5030.01)

                Procuring     Fuel and Ground Handling Services
                              at Commercial Airports

                                 Executive Summary

Introduction. This report is the second in a series of reports on DOD management of
fuels. This audit was requested by the Assistant Deputy Under Secretary of Defense
(Materiel and Distribution Management). DOD pilots usually obtain fkel and ground
handling services at military installations; however, mission requirements sometime dictate
landing at commercial airports. On those occasions, DOD pilots purchase fuel from
fixed-base operators at commercial airports using into-plane contracts, the aviation into-
plane reimbursement card, or local purchase procedures. DOD also uses the aviation
into-plane reimbursement card and local purchase procedures to obtain ground handling
services at commercial airports. DOD used the aviation into-plane reimbursement card to
procure $10.5 million of fuel from May 1, 1997, through April 30, 1998.

Audit Objectives. The overall audit objective was to evaluate the management of and
processes used to procure, store, and account for fuels to meet U.S. European Command
requirements for regional contingencies. The specific objective for this segment of the
audit was to determine the most cost-effective acquisition strategy for procuring aviation
fuel and to determine whether prices for ground handling services were reasonable at
commercial airports. Specifically, the Assistant Deputy Under Secretary of Defense
(Material and Distribution Management) had requested that we determine whether
cost-effective commercial alternatives existed for into-plane contracting and whether
fixed-base operators with into-plane contracts were increasing prices charged for ground
handling services to compensate for the lower fire1 prices negotiated in into-plane
contracts. We also reviewed the management control program as it related to the audit
objective.

Inspector General, DOD, Report No. 98- 114, “Fuel War Reserves for the European
Theater,” April 16, 1998, discusses the requirements determination process for fuel war
reserves. A subsequent audit will cover implementation of the role specialist nation
concept for the supply of fuel to multinational forces in the European theater.

Audit Results. The prices in into-plane contracts were generally lower than the prices
available through the use of the aviation into-plane reimbursement card and significantly
lower than commercial prices at commercial airports. However, the actual
cost-effectiveness of into-plane contracts over commercial alternatives could not be
determined because the Defense Energy Support Center had not evaluated the prime
vendor strategy for procuring fuel at commercial airports. As a result, the Defense Energy
Support Center cannot be assured that the acquisition strategy for procuring fuel at
commercial airports provides the best value to DOD (Finding A).
Based on our review of the 30 fixed-base operators, we found no indication that
fixed-base operators increased prices for ground handling services as a means to
compensate for lower fuel prices negotiated in into-plane contracts. Although the
30 fixed-base operators contacted had different methodologies for determining prices for
ground handling services, those methodologies did not result in price increases to DOD
(Finding B).

Management    controls were adequate as they applied to the audit objectives (Appendix A).

Summary of Recommendations.           We recommend that the Defense Energy Support
Center issue a request for information to potential prime vendors to identify their abilities
for providing fixed-base operator support at commercial airports and to determine the
feasibility of using the prime vendor strategy for providing fixed-base operator support at
commercial airports.

Management Comments. The Defense Energy Support Center concurred with the
findings and the recommendations.     A discussion of management comments is in Part I
and the complete text is in Part III.
Table of Contents

Executive Summary                                                           i


Part I - Audit Results
      Audit Background
      Audit Objectives
      Finding A. Procuring Fuel at Commercial Airports
      Finding B. Procuring Ground Handling Services

Part II - Additional Information
      Appendix A. Audit Process
        Scope and Methodology                                              14
        Management Control Program                                         15
        Summary of Prior Coverage                                          15
      Appendix B. Additional Background Information      on the Aviation
                   Into-Plane Reimbursement Card                           16
      Appendix C. Details on Fuel Price Comparison                         19
      Appendix D. Report Distribution                                      24

Part III - Management Comments

      Defense Energy Support Center Comments                               28
Part I - Audit Results
Audit Background

        DOD pilots usually obtain fuel and ground handling services at military
        installations; however, mission requirements sometimes dictate that they land at
        commercial airports. Commercial airports have on-site commercial businesses that
        provide fuel and ground handling services. The businesses are referred to as
        fixed-base operators (FBOs). DOD pilots purchase fuel from the FBOs at
        commercial airports using into-plane contracts, the aviation into-plane
        reimbursement (AIR) card, or local purchase procedures. DOD pilots also use the
        AIR card and local purchase procedures to obtain ground handling services at
        commercial airports.

        Into-Plane Contracts. Into-plane contracts are multi-year agreements between
        the Defense Energy Support Center (DESC) and FBOs for the purchase of fuel
        with additives’ at commercial airports. DESC establishes into-plane contracts at
        commercial airports where DOD anticipates fuel requirements of at least
         15,000 gallons per year. Into-plane contracts include military standards for fuel
        quality, but do not guarantee that DOD will purchase minimum or maximum fuel
        quantities. As of October 1, 1997, DESC had awarded 337 into-plane contracts
        for 507 airports worldwide, comprising 308 contracts for 338 airports in the
        continental United States and 29 contracts for 169 airports in Alaska, Hawaii, and
        88 countries. During FY 1997, about $167 million of fuel was purchased under
        those 337 contracts. In addition, DESC employed 19 personnel to manage
        into-plane contracts at an estimated $1 million in annual operating expenses.

       AIR Card Contract. In January 1997, DESC awarded the first ATR card contract
       to Kropp Holdings, Inc., a commercial credit card processing company. The AIR
       card was developed to improve local purchase procedures by providing visibility
       over fuel and ground handling services purchased at FBOs not having into-plane
       contracts and affording DOD lower than commercial fuel prices through contractor
       discounts. From May 1, 1997, through April 30, 1998, the AIR card contractor
       processed over 13,000 transactions for over 5.7 million gallons of fuel, valued at
       about $10.5 million. Eventually, DESC plans to use the AIR card for all purchases
       of fuel and ground handling services, including procurements at FBOs with
       into-plane contracts. Future procedures will enable pilots to use the AIR card in
       place of the aircraft identa-plate’ to purchase fuel at into-plane contract prices.
       Those procedures will be implemented as soon as an automated link between
       DESC and the Defense Finance and Accounting Service is implemented. See
       Appendix B for additional information on the AIR card.




‘Additives consist of fuel system icing inhibitor and corrosion inhibitors.
‘The identa-plate is an aircraft identification card (DD Form 1896 for jet fuel and
 DD Form 1897 for aviation gasoline).

                                               2
     Local Purchase Procedures. Local purchase procedures are used for procuring
     fuel and ground handling services at airports where DESC did not establish
     into-plane contracts and FBOs do not accept the AIR card. Using local purchase
     procedures, DOD pilots purchase fuel and ground handling services at commercial
     prices using either Standard Form 44 “Purchase-Order-Invoice-Voucher”        or Air
     Force Forms 15/3 15 “United States Air Force Invoice/United States Air Force
     Avfuels Invoice.” Centralized data identifying the purchaser, the quantities
     purchased, date of transaction, and cost per gallon or service was not available at
     DESC or the AIR card contractor because they are not involved in the local
     purchase process. The FBOs send the invoices directly to the home station or base
     of the pilot making the purchase.


Audit Objectives

     This report is the second in a series of reports on DOD management of fuels. This
     audit was requested by the Assistant Deputy Under Secretary of Defense (Materiel
     and Distribution Management). The overall audit objective was to evaluate the
     management of and processes used to procure, store, and account for fuels to meet
     U.S. European Command requirements for regional contingencies. The specific
     objective for this segment of the audit was to determine the most cost-effective
     acquisition strategy for procuring aviation fuel and to determine whether prices for
     ground handling services were reasonable at commercial airports. Specifically, the
     Assistant Deputy Under Secretary of Defense (Material and Distribution
     Management) had requested that we determine whether cost-effective commercial
     alternatives existed for into-plane contracting and whether FBOs with into-plane
     contracts were increasing prices charged for ground handling services to
     compensate for the lower fuel prices negotiated in into-plane contracts. We also
     reviewed the management control program as it related to the audit objective.

     Inspector General, DOD, Report No. 98-l 14, “Fuel War Reserves for the
     European Theater,” April 16, 1998, discusses the requirements determination
     process for fuel war reserves. A subsequent audit will cover implementation of the
     role specialist nation concept for the supply of fuel to multinational forces in the
     European theater. See Appendix A for a discussion of the audit scope and
     methodology and our review of the management control program and for a
     summary of prior coverage related to the audit objectives.




                                          3
                Finding A. Procuring Fuel at
                Commercial Airports
                The prices in into-plane contracts were generally lower than the prices
                available through the use of the AIR card and significantly lower than
                commercial prices at commercial airports. However, the actual
                cost-effectiveness of into-plane contracts over commercial alternatives
                could not be determined because DESC had not evaluated the prime
                vendor strategy for procuring fi,rel at commercial airports, As a result,
                DESC cannot be assured that its acquisition strategy used for procuring
                fuel at commercial airports provides the best value to DOD.


Policy and Contract Provisions

        Comptroller Memorandum on Prime Vendor Contracting. An Under
        Secretary of Defense (Comptroller) memorandum, “Management Reform
        Memorandum No. 12--Expanding the use of Prime Vendor Contract Instruments,”
        June 17, 1997, discusses the use of prime vendor contracts that permit DOD
        customers to procure items directly from commercial suppliers, thereby avoiding
        the cost of building warehouses and maintaining inventories. The memorandum
        further states that the Defense Logistics Agency had already extended the prime
        vendor innovation for facilities maintenance and concludes that, although prime
        vendor contracts are in the prototype stage, the technique has the potential for
        considerable cost savings to DOD.

        AIR Card Contract Provisions. The AIR card contract specifies the
        responsibilities of the contractor in the processing of DoD purchases using the AIR
        card. The AIR card contract requires the contractor to provide detailed
        transaction data to DOD to ensure timely and accurate billings to the Services
        responsible for the aircraft3 In addition, the AIR card contract provisions require
        the contractor to make payments to the FBOs. The contract contains neither
        provisions requiring the AIR card contractor to sell fuel or ground handling
        services to DOD nor provisions that discuss the prices DOD would be charged for
        fuel or ground handling services. Thus, the AIR card contractor could increase the
        fuel price at any time, up to the FBOs commercial price, and still be in compliance
        with the terms and conditions of the AIR card contract.




3DoD aircraft include fighters, helicopters, patrol craft, and transports.




                                                4
                                       Finding A. Procuring Fuel at Commercial Airports


Comparing Existing Fuel Purchasing Alternatives

       The prices in into-plane contracts were generally lower than the prices available
       through the use of the AIR card and significantly lower than commercial prices at
       commercial airports. DOD pilots purchased fbel using into-plane contracts, the
       AIR card, or local purchase procedures. Into-plane contract fuel prices were
       adjusted up or down weekly using an independent reference index such as P&t s
       Oilgram Price Report.4 AIR card fuel prices are adjusted whenever market prices
       dictate a change or the FBO notifies the AIR card contractor of an increase or
       decrease in fuel prices. FBOs adjust commercial fuel prices at any time, based on
       fuel market conditions.

       Fuel Price Comparison. As of October 1, 1997, DESC had a worldwide
       universe of 507 airports using into-plane contracts. Of the 507 airports, 107 (63 in
       the continental United States and 44 overseas) had tie1 pricing data available to
       compare the into-plane contract, the AIR card contract, and commercial prices.
       We compared those prices to determine whether any significant differences
       existed. For the comparison, we selected airports where at least one FBO had an
       active into-plane contract, at least one FBO accepted the AIR card, and
       commercial prices were available. The prices compared were per gallon prices
       plus taxes and fees in effect during September and October 1997. We used the
       most favorable AIR card contractor prices, based on volume discounts, that the
       FBO offered at those locations. See Appendix C for a list of the 107 FBOs and
       the into-plane, AIR card, and commercial prices in our sample.

       Lower Into-Plane Prices. The comparison of into-plane contract, AIR card
       contract, and commercial tie1 prices showed that into-plane contracts provided the
       lowest price to DOD. The average fuel price at the 107 airports was $1.10 per
       gallon for into-plane contracts, $1.63 for the AIR card contract, and $1.90 at the
       commercial price. As a result, the into-plane price averaged $.53 per gallon less
       than the AIR card price, and $.80 per gallon less than the commercial price. In
       contrast, the AIR card price averaged only $.27 per gallon less than the
       commercial price at the 107 FBOs offering discounts. In addition, the into-plane
       contract advantage over the AIR card contract averaged $.70 less per gallon in the
       continental United States, whereas the into-plane contract averaged only $.27 per
       gallon less overseas.’ Based on our review of into-plane prices; AIR card prices;
       and commercial prices for tiel, DOD pilots can obtain the lowest prices available
       when using FBOs having into-plane contracts to purchase tiel.


Commercial         Prime Vendors

       Although the fuel costs     per gallon for into-plane contracts were lower, DESC
       could not determine the     cost-effectiveness of into-plane contracts over all
       commercial alternatives     because DESC had not fblly evaluated the costs and
       benefits of consolidating    fuel procurements at commercial airports through one or

4Pfatt’s Oilgram Price Report is a newsletter published daily by McGraw-Hill providing
 information on worldwide prices for petroleum products.
5Total tie1 cost savings are dependent on the volume of fuel purchased at each location.

                                               5
Finding A. Procuring Fuel at Commercial Airports

      more prime vendors. The prime vendor strategy is a concept of support whereby a
      single distributor serves as the major provider of a product to various Federal and
      state customers within a geographical region or zone. The Defense Logistics
      Agency has successfully used prime vendor contracts for other commodities in an
      attempt to mirror commercial business practices and to eliminate unneeded costs.

      Prime Vendor Strategy. The Defense Logistics Agency used the prime vendor
      strategy to leverage private sector capabilities and streamline acquisition for
      construction, food and beverage, and medical supplies. For example, regional
      contracts that provide for payment to a few prime vendors for medical supplies
      have replaced the use of multiple payments to many medical supply contractors.
      Benefits of prime vendor contracts include reduced inventory costs, reduced
      prices, and improved service, with reduced inventory costs cited as the primary
      benefit. Although the use of prime vendors for procuring fuel at commercial
      airports would represent a new application of the concept, potential benefits
      include lower tieI and lower contract administration costs and improved service.

      DESC Actions. The DESC had not pursued a prime vendor acquisition strategy
      for procuring fuel at commercial airports, although a potential prime vendor had
      submitted a proposal to DESC. In the December 1996 proposal, the contractor
      would negotiate and manage fuel acquisitions at into-plane contract locations and
      at commercial airports that did not have into-plane contracts, including AIR card
      purchases. DESC determined that the unsolicited proposal was actually a late
      response to the specific solicitation for a Government credit card processor; thus,
      the proposal could not be considered. Although the contractor submitted the
      proposal after the solicitation closing date, DESC could have surveyed the
      commercial market to determine whether the contractor’s claims concerning the
      capabilities of the commercial market were valid. In addition, DESC could have
      issued a request for information soliciting the cost data needed to compare the
      contractor costs and DOD costs for managing into-plane contracts and the AIR
      card program. The proposal received from the potential prime vendor did not
      include any cost data, and as of May 1998, DESC had not taken any action to
      evaluate the costs and benefits of pursuing a prime vendor strategy for into-plane
      contracts for procuring fuel at commercial airports.

      Potential Benefits from Prime Vendor Strategy. The DESC could obtain
      benefits when procuring fuel at commercial airports that were not traditionally
      associated with the prime vendor strategy. However, DESC did not take action to
      pursue the prime vendor strategy because DESC officials believed that they had
      already realized the main benefit obtainable through a prime vendor strategy,
      reduced inventory costs. DESC tirther believed that because into-plane contracts
      did not result in DOD fuel inventories and the contracting officer dealt directly with
      the commercial supplier, then no tirther benefits would be obtained by a prime
      vendor strategy. Although reduced inventory costs are the main benefit cited for
      past uses of the prime vendor strategy, the basic concept of replacing multiple
      suppliers with one or several prime vendors could provide the following benefits
      for firture contracts.

               o Contract management costs could be reduced if DESC is responsible for
      managing at least one prime vendor contract instead of over 300 into-plane
      contracts.
                                Finding A. Procuring Fuel at Commercial Airports

           o DOD processing costs could be reduced if only one or more prime
    vendors were reimbursed for all into-plane transactions.

            o Fuel prices available through prime vendor commercial sources could be
    lower than into-plane prices because the prime vendors could negotiate with FBOs
    using the leverage provided by the purchase volume of into-plane contracts plus
    the leverage already provided by existing agreements between the prime vendor
    and FBOs.

    To determine the feasibility of a prime vendor strategy, DESC should identify
    potential prime vendors in the commercial sector and evaluate the costs and
    benefits of using any available sources for procuring fuel at commercial airports.
    The evaluation should include the costs of DoD management of into-plane and
    AIR card contracts versus the cost of managing one or more prime vendor
    contracts. The evaluation would also need to include the benefits, if any, that
    could result from using commercial sources with the additional negotiating
    leverage provided by DOD purchase volume. Finally, the evaluation would need to
    include any quality and safety risks that using a prime vendor strategy could pose.

    Potential Prime Vendors. Because DESC had not obtained potential prime
    vendor cost and pricing data, we could not determine the cost and benefits of using
    a prime vendor for procuring fuel at commercial airports. However, we did
    identify existing commercial sources that perform functions similar to those that a
    prime vendor might perform. To identify potential prime vendors, we surveyed
    four commercial aviation credit card companies or fuel suppliers to determine the
    services they provide to their corporate or general aviation customers. The four
    companies contacted were Multi-Service Corporation, British Petroleum,
    Universal Air, and Air Routing International. Each company had established
    agreements with FBOs to provide fuel to their customers at discounted or
    commercial prices. Officials from the four companies stated that they had
    agreements with from 600 to 3,800 locations worldwide and that commercial
    airlines, major corporations, and thousands of general aviation pilots used one or
    more of the companies to obtain fuel at commercial airports. The companies also
    stated that they will occasionally establish agreements, of varying lengths, at
    specific locations on behalf of customers. Two of the four companies guaranteed
    fuel quality or included fuel quality in agreements with FBOs. One company
    official also stated that the company occasionally performed or coordinated fuel
    quality reviews.


Additional Information Needed for Ensuring Best Value
    Further information and additional analysis are needed to fully analyze the
    feasibility, costs, and benefits of using commercial companies as a prime vendor.
    We were able to obtain general information from the commercial companies we
    contacted, but were limited to the specific information we could obtain concerning
    their capabilities and costs. Only the DESC contracting officers can issue requests
    for information asking commercial companies to demonstrate their ability to
    provide fixed-based operator support at commercial airports and to provide cost
    estimates. On June 2, 1998, we agreed to work with DESC to analyze the
    feasibility of using the prime vendor strategy for providing fixed-base operator
    support at commercial airports, Specifically, we would work together to
                                         7
Finding A. Procuring Fuel at Commercial Airports

      determine whether a prime vendor market exists that would respond to a
      solicitation for FBO support at commercial airports; the costs involved; and
      whether DOD could realize potential monetary benefits. Without obtaining and
      evaluating information concerning prime vendors, DESC cannot be assured that
      the acquisition strategy used for procuring fuel at commercial airports provides the
      best value to DOD.


Recommendations and Management Comments
      A. We recommend that the Commander,           Defense Energy Support Center:

              1. Issue a request for information to potential prime vendors to
      identify their ability to provide fixed-base operator support at commercial
      airports.

              2. Determine the feasibility of using the prime vendor strategy for
      providing fixed-base operator support at commercial airports.

      Management Comments. The Defense Energy Support Center concurred with
      the recommendations, stating that all actions will be completed by
      September 30, 1998.
           Finding B. Procuring Ground Handling
           Servictk
           Based on our review of the 30 FBOs, we found no evidence that FBOs
           increased prices for ground handling services as a means to compensate for
           lower fuel prices negotiated under into-plane contracts. Although the
           30 FBOs contacted had different methodologies for determining prices for
           ground handling services, those methodologies did not result in price
           increases to DOD.


Ground Handling Services
    Types of Ground Handling Services. Ground handling services are the care and
    servicing of an aircraft and its crew that FBOs provide at commercial airports. In
    addition, FBOs collect fees and taxes that an airport authority assesses when an
    aircraft lands. Ground handling services include baggage handling, deicing, engine
    starts, general handling, hangar rental, lavatory servicing, and parking. Fees and
    taxes include airport fees, airport head tax, departure tax, Drug Enforcement
    Administration fees, immigration fees, landing fees, and sales tax. Not all ground
    handling services are required and not all fees and taxes are applicable each time an
    aircraft lands at a commercial airport. Also, an FBO, at its discretion, can choose
    to provide ground handling services for DOD aircraft and crew even when fuel is
    not purchased.

    Guidance for Ground Handling Services. Ground handling services are not
    procured under contracts because contracts are not required for purchases of
    $2,500 or less. The Services procure ground handling services with either the AIR
    card or local purchase procedures. DOD had not issued guidance for using the
    AIR card to procure ground handling services because DESC did not approve the
    AIR card for DOD-wide use until October 1997. In addition, DOD had not issued
    specific guidance for procuring ground handling services; however, the Federal
    Acquisition Regulation contains guidance on local purchase procedures, which the
    Army and Navy used when procuring ground handling services. The Federal
    Acquisition Regulation states that local purchase procedures can be used for
    on-the-spot, over-the-counter purchases of supplies and nonpersonal services
    (such as ground handling services) of $2,500 or less. In contrast to the Army and
    the Navy, the Air Force issued Air Force Instruction 23-202, “Buying Petroleum
    Products, and Other Supplies and Services Off-Station,” July 19, 1994, which
    states that the Air Force is authorized to procure ground handling services using
    local purchase procedures when an official mission or trip is made to an area where
    Air Force, other DOD, or contract services are not available.




                                          9
Finding B. Procuring Ground Handling Services


Pricing of Ground Handling Services

      Based on our review of the 30 FBOs, the FBOs did not increase prices for ground
      handling services to compensate for low fuel prices negotiated under into-plane
      contracts. Although the 30 FBOs contacted had different methodologies for
      determining prices for ground handling services, those methodologies did not
      result in price increases to DOD.

      Review of FBOs with Into-Plane Contracts. As of October 1, 1997, DESC had
      308 into-plane contracts in the continental United States. We judgmentally
      contacted 30 (10 percent) FBOs that had into-plane contracts in FY 1997 to
      determine the rationale they used to price ground handling services. In FY 1997,
      10,663 aircraft landed at those 30 FBOs and procured over 13.5 million gallons of
      fuel using into-plane contracts. However, we were unable to determine the
      volume or costs of ground handling services procured from those 30 FBOs
      because the Services did not maintain a data base for accumulating ground
      handling service expenditures.

      Methodology for Determining Prices for Ground Handling Services. Each of
      the 30 FBOs contacted had developed its own unique pricing structure for ground
      handling services. Some of the variables that the 30 FBOs considered when
      determining prices for ground handling services consisted of size of the aircraft,
      whether fuel was purchased and the number of gallons, whether the pilot was a
      regular customer, and the number of services provided. In addition, the FBOs
      considered the length of time the aircraft stayed at the FBO, whether equipment
      had to be rented from a major airline or another FBO, fees and taxes set by the
      airport authority, and the prices of their competitors. Of the 30 FBOs contacted:

             o 12 did not charge DOD pilots for any ground handling services;

             o 7 always charged DOD pilots for ground handling services at the
      commercial prices;

               o 5 would either reduce or waive charges for ground handling services if
      DOD pilots procured fuel at the same time the ground services were provided,
      regardless of the method DOD pilots used to procure the fuel;

             o 5 sometimes reduced or waived ground handling service charges for
      DOD pilots regardless of whether fuel was procured; and

              o 1 charged DOD a flat rate regardless of the number of ground handling
      services provided.




                                          10
                               Finding B. Procuring Ground Handling Services

Prices Charged DOD and Commercial Customers. The DOD pilots paid prices
for ground handling services that were either the same or less than the prices that
FBOs charged commercial customers. In addition, procuring ground handling
services from FBOs with into-plane contracts did not result in higher costs to
DOD. For the 18 FBOs that sometimes or always charged DOD pilots for ground
handling services, there was a wide range of prices for those services. For
example, Mercury Air Center Los Angeles charged from $94 to $380 for use of its
ramp parking area, based on the size of the aircraft, and separately priced all other
services that it provided. Its prices for ground handling services were not based on
whether the DOD pilot used an into-plane contract to procure fuel. In contrast,
Bangor International Airport charged DOD a flat $2 15 handling fee regardless of
the size of the aircraft,. which covered all ground handling services including
clearing customs, deicing, engine starts, and lavatory servicing. Personnel at
Bangor Airport stated that a commercial customer would be charged from $500 to
$2,000 for ground handling services, based on the aircraft size and the services
needed. Overall, the 18 FBOs did not charge DOD pilots prices for ground
handling services that exceeded prices charged to commercial customers and oflen
charged DOD pilots less than commercial customers.

Based on the results of our review, we concluded that FBOs were not increasing
prices for ground handling services to compensate for low fuel prices negotiated
under into-plane contracts. It was standard business practice for the 30 FBOs to
either waive charges for ground handling services provided to DOD pilots or to
charge prices that were lower than or equivalent to prices that those FBOs charged
their commercial customers. In addition, no relationship existed between fuel
prices negotiated under into-plane contracts and prices charged for ground
handling services. As a result, we are not making any recommendations on ground
handling services in this report.




                                     11
Part II - Additional Information
Appendix A. Audit Process

Scope and Methodology

    We reviewed DOD policies on local purchase procedures, DESC policies and
    procedures for managing the into-plane contracts and DESC methodology for
    soliciting and awarding the contract for the AIR card. In addition, we reviewed
    DESC frequency reports for FYs 1996 and 1997 that summarized the volume of
    fuel purchased under into-plane contracts, transactions processed by the AIR card
    contractor from May 1, 1997, through April 30, 1998, and FY 1998
    documentation from FBOs on pricing ground handling services.

    To determine whether prices charged for fuel under into-plane contracts were
    lower than prices the AIR card contractor and FBOs charged, we compared
    into-plane contract prices with the prices available through a commercial discount
    fuel program that the AIR card contractor operated and the commercial prices
    FBOs set. To determine whether DESC had evaluated the prime vendor concept,
    we identified the missions and functions integral to the into-plane program,
    examined DOD policy and practices on the use of the prime vendor strategy, and
    contacted four private sector companies in the aviation fuel business to obtain
    information on the services they typically provide to their customers. To
    determine whether FBOs were increasing prices for ground handling services they
    provided to DOD to compensate for low fuel prices negotiated under into-plane
    contracts, we contacted 30 of the 308 FBOs that had into-plane contracts in
    FY 1997 and obtained pricing information and discussed the variables affecting the
    pricing of ground handling services for commercial and DOD aircraft.

     DOD-wide Corporate Level Goals. In response to the Government Performance
     and Results Act, DOD established 6 DOD-wide corporate level performance
     objectives and 14 goals for meeting those objectives. This report pertains to the
     achievement of the performance objective to findamentally reengineer DOD and to
     achieve a 2 1st century infrastructure. The goal of that objective is to reduce costs
     while maintaining required military capabilities across all DOD mission areas.
     (DOD-~)

     High Risk Area. The General Accounting Office identified several high risk areas
     in DOD. This report provides coverage of the Defense Contract Management high
     risk area.

     Use of Computer-Processed Data. We relied on computer-processed           data fi-om
     the DESC Defense Fuels Automated Management System and the Accounting
     System of the AIR card contractor. We did not test general and application
     controls to confirm the reliability of the systems because we only relied on the
     information to determine the magnitude of into-plane contracts and purchases
     made with the AIR card and to compare prices for fuel. Not testing the controls
     did not affect the results of the audit.




                                           14
                                                        Appendix A. Audit Process

    Audit Type, Dates, and Standards. This economy and efficiency audit was
    conducted from February through May 1998. The audit was conducted in
    accordance with auditing standards issued by the Comptroller General of the
    United States, and accordingly, included such tests of management controls as
    were considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DOD, commercial contractors, and commercial trade
    organizations. Further details are available upon request.


Management      Coritrol Program

    DOD Directive 5010.38, “Management Control Program,” August 26, 1996,
    requires DOD organizations to implement a comprehensive system of management
    controls that provides reasonable assurance that programs are operating as
    intended and to evaluate the adequacy of the controls.

    Scope of Review of Management Controls. We reviewed the adequacy of
    management controls over the into-plane contracting process. We did not review
    the Services’ management controls over procuring ground handling services
    because we did not identify any problems at the FBOs. We did not assess the
    adequacy of management’s self-evaluation because we did not identifjr a material
    weakness.

    Adequacy of Management Controls. The DESC management controls over
    into-plane contracts were adequate. We identified no material management
    control weaknesses in those areas reviewed.


Summary of Prior Coverage

    General Accounting Office Report No. GAO/NSIAD-96-188 (OSD Case
    No. 1189), “Information on Selected Aspects of DOD’s Jet Fuel Programs,”
    July 31, 1996.




                                        15
Appendix B. Additional Background Information
on the AIR Card

   The Government AIR card is a commercially accepted credit card that DOD uses
   to purchase fuel, fuel related supplies, and ground handling services at commercial
   airports. Kropp Holdings, Inc. (the contractor), is the credit card processor under
   contract for the AIR card. The AIR card is used in place of local purchase
   procedures and provides fuel discounts from the commercial price. When the AIR
   card is used, the AIR card contractor pays the FBO and DOD reimburses the AIR
   card contractor. DESC is responsible for negotiating and managing the AIR card
   contract and for implementing any future changes to transaction processing
   procedures.

   Background. The AIR card initially was developed by the Air Force in 1994, as a
   replacement for Air Force local purchases. In a December 23, 1994,
   memorandum, the Air Force notified the Defense Logistics Agency that the credit
   card the Air Force was using provided an improved accounting and payment
   process as well as other favorable advantages, including access to lower fuel prices
   from discounts available only to card holders; greater acceptability by foreign
   vendors; and better visibility of flying hour costs. In addition, the Air Force
   offered its assistance to the Defense Logistics Agency in implementing a similar
   aviation fuel credit card for use throughout DOD. DESC reviewed the Air Force
   credit card process and initiated procurement procedures to implement the AIR
   card concept. It issued a solicitation for the Government AIR card contract in
   October 1996.

   Issuance of Credit Card. On January 23, 1997, DESC awarded an AIR card
   contract to Kropp Holdings, Inc., for an &month test period, ending
   September 30, 1997, with 2 succeeding option years. During the test period, the
   contractor was responsible for issuing credit cards to participating military units,
   providing computer systems training, and processing AIR card transactions. On
   September 29, 1997, DESC exercised option year 1 that extended the contract
   period to September 30, 1998. Option year 1 called for expanding the AIR card
   use to all DOD organizations and interfacing with the DESC Fuels Automated
   System for purchases and invoicing of other than into-plane transactions. In
   addition, option year 2 of the contract, due to be exercised October 1, 1998,
   would provide credit cards to all Federal civilian agencies while providing the same
   transaction processing services as prior years. During the contract test period, the
   contractor issued approximately 500 AIR cards to selected military units to be
   used for purchasing ground handling services and fuel at noninto-plane FBOs. The
   number of AIR cards distributed throughout DOD increased to 15,000 during
   option year 1. The number of credit cards issued will increase substantially to
   accommodate all Federal civilian agencies under option year 2.




                                        16
            Appendix B. Additional Background         Information   on the Air Card

 Contractor Transactions Using the AIR Card. The contractor uses two types
 of transactions for the purchase of fuel and ground handling services. The first is a
typical credit card transaction whereby the FBO pays the contractor a processing
fee of between 1.5 percent and 4 percent for accepting the credit card. In return,
the FBO receives payment from the contractor within an agreed-upon period,
usually 7 to 10 days. Those credit card transactions apply to fuel and ground
.handling services. The second type of transaction is a resale fuel transaction in
which the contractor purchases fire1 from an FBO, a fuel wholesaler, or the
commodities market and resells it at a profit to its customers, including DOD, for a
price known as the “OASIS discount.” For those transactions, the AIR card
serves as an identification card informing the vendor that the holder of the card is
eligible for the OASIS discount. The resale transaction does not require the FBO
to pay the contractor the processing fee and does not guarantee faster payments to
the FBO.

Payment Processes. The payment processes for the AIR card vary according to
whether fuel or ground handling services are purchased and which Service is
involved. DOD pilots or a member of their crew present the AIR card to the FBO
that provides the fuel or ground handling services. The FBO submits the purchase
invoices to the contractor by electronic transmission, facsimile, or mail. The
contractor pays the FBO according to the conditions agreed upon by the
contractor and the FBO. Once a week, the contractor invoices the Services’ home
stations or fuel offices, depending on payment procedures and whether fuel or
ground services are purchased. The Defense Finance and Accounting Service
reimburses the contractor citing the Services’ Working Capital fund or Operation
and Maintenance fund.

The AIR card has met the initial intended purposes of the program. As
implemented, the AIR card has replaced local purchase methods at those FBOs
accepting the AIR card and provides greater visibility over purchases at those
locations. The following figure shows the billing and payment procedures for each
Service.




                                      17
Appendix     B. Additional           Background     Information     on the AIR Card




                                 Air crews purchase fuel and ground services
                                                 from FBO.




                                          FBO forwards invoice to KR.’

  Transactions                                                                 Transactions
  8 Air Force ground                                                           lAir Force fuel.
  handling services.
                                                  KR pays FBO.                             KR sends
  l Army fuel and ground
                                                                                   information copy of fuel
  handling services.
                                                                                   invoices to San Antonio
  l Navy fuel and ground                                                                     ALC.2
  handling services.

        KR sends a copy
  of the invoice to the aircraft’s
          home station.                                                         ALC validates and inputs
                                                                                fuel transactions into the
                                                                                    Fuels Automated
                                                                                  Management System.



                                                                                   ALC certifies invoice
     Home station certifies
                                                                                    and forwards to the
  the invoice and fonvards to
                                             location receives original            San Antonio Defense
    servicing DFAS office
                                                                                   Accounting OfXce for
          for payment.
                                                                                         payment.



                                                                                 San Antonio Defense
                                                                                    Accounting OfIice
                                               DFAS location makes              cites Air Force Working
  DFAScities 0 & MJ funds             b                                            Capital fund to pay
                                                 payment to KR.
        to pay KR.                                                                         KR.


 ‘KR    Contractor.
 ‘ALC   Air Logistics Command.
 3DFAS Defense Finance and Accounting Service.
 40 & M Operation and Maintenance.


 AIR Card Billing and Payment                Process at Noninto-Plane      Locations




                                                        18
Appendix C. Details on Fuel Price Comparison

   We compared prices at airports to determine whether fuel prices negotiated under
   into-plane contracts were more economical than prices offered through the AIR
   card contractor and commercial prices set by FBOs. We selected the airports for
   our comparison from the universe of 507 airports around the world, at which
   DESC had established into-plane contracts as of October 1, 1997.

    Methodology for Selecting Airports for Review.         From the universe of
    507 airports, we selected airports for review if

          o we could obtain the into-plane price, the AIR card price, and the
   commercial price in effect during September and October 1997;

           o at least one FBO had an active into-plane contract; and

           o at least one FBO accepted the AIR card.

   Of the 507 airports, only 107 airports met all three criteria, 63 in the continental
   United States and 44 overseas. We performed a price comparison at all
   107 airports.

   Adjustments to Fuel Per Gallon Price. To standardize the per gallon fuel prices,
   we included fees and taxes in our comparison of the into-plane price, AIR card
   price, and commercial price. Fees and taxes include airport fees, airport tax,
   customs supervision fee, Federal excise tax, hydrant fee, and value added tax. We
   included fees and taxes in the per gallon price although DOD may be exempt from
   paying fees and taxes at certain airports or may be eligible for a refLnd of taxes
   paid. In addition, we adjusted the data obtained from the AIR card contractor for
   airports outside the continental United States to include fees and taxes equivalent
   to those charged for into-plane sales at the same location and assumed that any
   volume discounts available were taken.

   Tables C- 1 and C-2 show the price comparison for fuel at the IO7 airports. The
   into-plane prices at 33 of the 63 airports in the continental United States include
   the cost for a fuel additive that inhibits icing. The price for fuel with the additive is
   slightly higher than the price for fiel without the additive.




                                          19
Annendix     C. Details on Fuel Price Comnarison


           Table C-l.     Fuel Prices at Airports in the Continental    United States


                                                           Into-Plane   AIR Card    Commercial
 Airport Name, Citv, State or Country                         Price       Price        Price

Abilene Regional Airport, Abilene, Texas-                   $1.38        $1.87          $2.12
Adams Field, Little Rock, Arkansas                           0.82         1.34            1.69
Akron Canton Regional Airport, Canton, Ohio’                 1.26         1.99            2.09
Albuquerque International Airport. Albuquerque,
 New Mexico’                                                  1.11        1.64           I.84
Alexandria International Airport. Alexandria, Louisiana*      1.00        1.78           1.98
Bangor International Airport, Bangor, Maine                   1.18        1.53           1.92
Billings/Logan International Airport, Billings, Montana’      1.28        1.91           2.15
Boeing Field/King County. Seattle. Washington                 0.94        1.93           2.38
Boise Air Terminal, Boise, Idaho                              1.11        1.78           2.18
Brown Field Municipal Airport, San Diego. California          1.41        1.90           2.20
Bronns\ille South Padre Island Inlernational Airport,
 South Padre. Texas’                                          1.01        2.00           2.15
Burke Lake Front Airport. Cle\seland. Ohio’                   1.14        2.10           2.30
Capital City Airport. Lansing. Michigan’                      1.36        2.11           2.31
Carl Spaatz Field. Reading Regional Airport, Reading.
 Pennsyl~anin                                                 1.24        1.92           2.22
Central Nebraska Regional Airport. Grand Island,
 Nebraska                                                     1.21        1.55           1.85
Columbia Municipal Airport, W. Columbia.
 South Carolina                                              1.07         1.58           1.63
Dallas Love Field, Dallas. Tesas                             0.93         2.16           2.26
Daugherty Field, Long Beach. California                      1.01         1.70           2.27
DeKalb-Peach-Tree Airport. Atlanta, Georgia*                 1.15         1.99           2.24
Easton Municipal Airport. Easton. Maryland’                  1.41         1.63           1.69
El Paso International Airport. El Paso. Texas                1.26         2.01           2.17
Falcon Field. Mesa, Arizona’                                 1.26         1.94           2.36
Ft. Lauderdale Hollywood International Airport. Fort
Lauderdale. Florida                                          0.95         1.54           2.24
Garden City Regional Airport, Garden Cib, Kansas’            1.26         1.70           1.95
Grand Strand Airport, N. Myrtle Beach, South Carolina’       1.19         1.62           1.92
Great Falls International Airport, Great Falls, Montana      1.52         1.85           2.15
Greater Rockford Airport, Rockford, Illinois’                1.16         1.48           2.28
Hancock International Airport, Syracuse. New York            0.98         1.84           2.14
Hector Field. Fargo, North Dakota‘                           1.32         1.56           2.00
Helena Regional Airport, Helena. Montana’                    1.24         1.70           2.10
Houston International Airport, Houston, Texas’               1.13         1.85           2.10
Hulman Field, Terre Haute, Indiana’                          1.44         2.06           2.31
L.G. Hanscom Field. Bedford, Massachusetts*                  1.08         2.01           2.29
Lakefront Airport, New Orleans, Louisiana*                   1.06         2.23           2.33

 *Into-plane price includes fuel system icing inhibitor.




                                                     20
                                                   Appendix C. Details on Fuel Price Comparison



                                                                 Into-Plane   AIR Card   Commercial
    Airwrt Name. Cih’. State or Countrv.                            Price       Price      Price

    Laredo International Airport, Laredo, Texas’                   1.19         1.80        1.90
    Lea County Airport Hobbs Service. Hobbs, New Mexico            1.25         1.95        2.05
    Lincoln Municipal Airport, Lincoln, Nebraska*                  1.21         1.35        1.65
    Lubbock International Airport, Lubbock, Texas’                 1.27         1.87        2.12
    Manassas Regional Airport, Manassas, Virginia                  0.95         1.99        2.09
    McCarron International Airport. Las Vegas, Nevada              1.32         1.91        2.19
    Miami International Airport, Miami, Florida                    1.31         2.03        2.19
    Missoula International Airport, Missoula, Montana              1.25         1.86        1.99
    Mobile Downtown Airport, Mobile, Alabama                       1.01         1.67        2.07
    Monroe Regional Airport, Monroe, Louisiana’                    1.24         1.88        2.20
    Natrona International Airport, Casper. Wyoming                 1.40         1.94        2.04
    New Hanover International Airport, Wilmington,
     North Carolina                                                0.93         2.05        2.18
    New Orleans International Airport, New Orleans, Louisiana      0.76         2.31        2.45
    Panama City/Bay Counn, Airport. Panama Cib, Florida            0.99         2.15        2.24
    Portland International Jetport. Portland. Maine                0.95         1.94        2.07
    Reynolds Field. Jackson Co. Airport, Jackson, Michigan’        1.43         1.70        1.85
    Richmond International Airport, Richmond. Virginia             0.87         2.03        2.13
    Salt Lake City International Airport, Salt Lake City, Utah     1.22         2.17        2.27
    San Antonio International Airport, San Antonio, Texas’         1.08         2.16        2.30
    Santa Maria Public Airport. Santa Maria. California’           1.34         1.45        1.70
    Sarasota-Bradenton Airport, Sarasota, Florida’                 1.28         1.89        1.99
    Sky Harbor International Airport, Phoenix. Arizona’            0.85         1.59        1.69
    St, Louis Regional Airport, Alton. Illinois’                   1.11         1.85        2.10
    Stockton Metro Airport. Stockton. California                   0.95         1.65        2.25
    Van Nuys Airport. Van Nuys, California                         1.04         1.79        1.99
    WK. Kellogg Regional Airport. Battle Creek, Michigan’          1.OO         1.72        1.90
    Walker Field, Grand Junction, Colorado                         1.45         1.90        2.00
    Wichita Mid-Continental Airport, Wichita, Kansas               1.15         2.17        2.27
    Yakima Air Terminal. Yakima. Washington                        0.93         2.26        2.36

      Average Fuel Prices                                         $1.15       S1.85        $2.10




.
    *Into-plane price includes fuel system icing inhibitor.




                                                        21
Appendix C. Details on Fuel Price Comparison


               Table C-2. Fuel Prices at Airports in Alaska and Overseas


                                                              Into-Plane   AIR Card   Commercial
 Aimort Name. Citv. State or County                              Price       Price      Price

Alice Springs, Northeastern Territov, Australia                $1.14        $1.91       $2.09
Anchorage International Airport, Anchorage, Alaska              1.07         1.74        2.04
Antalya International Airport, Antalya, Turkey                  0.65         0.87         1.26
Ataturk International Airport, Istanbul, Turkey                 0.66         0.85         1.15
Bahrain International Airport, Maharraq, Bahrain                0.76         1.00         1.23
Bangkok International Airport, Bangkok, Thailand                0.71         0.91         1.13
Bermuda International Airport, Saint Georges, Bermuda           1.12         1.49         1.59
Brussels National Airport, Brussels, Belgium                    0.70         0.93         1.78
Cairo International Airport. Cairo, Egypt                       0.71         0.84         1.01
Cyril E King International Airport, St. Thomas.
  Virgin Islands                                                1.23         1.44        1.60
DakarNoff International Airport. Dakar. Senegal                 0.82         0.96        1.16
Dalaman Field, Dalaman, Turke)                                  0.68         0.86        1.35
Dhahran International Airport. Dhahran. Saudi Arabia            0.77         0.97        1.47
Djibouti International Airport. Ambouli. Djibouti               1.02         1.23        1.40
El Salvador International Airpon. San Salvador,
 El Salvador                                                    0.98         1.37        1.72
El Trompillo Airport. Santa Cmz. Bolivia                         1.50       2.02         2.02
Entebbe International Airpon, Entebbe. Uganda                   1.21         1.70        1.98
Ezeiza Buenos Aires, Buenos Aires. Argentina                    1.04         1.16        1.23
Faro International Airport. Faro. Portugal                      0.69        1.10         1.37
Freetown International Airport. Freetown, Sierra Leone          1.39        1.56         2.32
Gardennoen International Airport. Oslo. Norway                  0.75        0.89         1.52
Harare International Airport, Harare, Zimbabwe                  0.98        1.01         1.01
Johan Pengel International Airport, Paramaribo, Suriname        0.98        1.24         1.68
Jorge Arauz Airport, Trinidad, Bolivia                          1.50        1.91         2.02
King Khalid International Airport, Riyadh, Saudi Arabia         0.86        0.97         1.39
Lamaca International Airport, Larnaca, Cyprus                   0.74        0.94         1.40
Leon’ M ba International Airport. Libreville, Gabon             0.86        0.93         1.06
Murtala Mhamd International Airport, Lagos, Nigeria             0.86        1.50         1.50
Nassau International Airport, Nassau, Bahamas                   1.10        1.69         1.79
Niamey International Airport, Niamey, Niger                     1.59        1.66         2.16
Nouakchott International Airport, Nouakchott, Mauritania        1.36        1.56         1.82
NsimaIen International Airport, Yaounde. Cameroon               1.67        1.98         2.18
Orly International Airport, Paris, France                       0.70        0.82         1.76
Port Au Prince International Airport, Port Au Prince, Haiti     1.57        1.71         2.20
Prague International Airport, Prague, Czech Republic            0.90        1.28         1.40
Rhine Main International Airport, Frankfurt, Germany            0.66        0.93         I .40
Seeb International Airport, Muscat, Oman                        1.44        0.98         1.57
Silvia Pettrosi International Airport, Asuncion, Paraguay       1.55        1.40         1.90
Sir Segosagr Rmgolm, Mahevourg, Mauritius                       0.81        1.09         1.34
Stuttgart International Airport. Echterdingen. Germany          0.94        1.72         1.88




                                                  22
                                            Appendix C. Details on Fuel Price Comparison



                                                           Into-Plane   AIR Card   Commercial
Airport Name, Citv. State or Country                          Price       Price      Price

Taif International Airport, Taif, Saudi Arabia               1.27         1.70        2.05
Thessalonika International Airport, Thessalonika, Greece     0.74         1.12        1.28
VimViru International Airport, Santa Cruz, Bolivia           1.50         2.02        2.02
Wien Schwechar, Vienna, Austria                              0.93         1.23        1.77

  Average Fuel Prices                                       $1.03       $1.30        $1.61

   Average Worldwide Fuel Prices                            $1.10       $1.63        $1.90




                                                 23
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Acquisition Reform)
   Deputy Under Secretary of Defense (Logistics)
       Assistant Deputy Under Secretary of Defense (Materiel and Distribution
        Management)
   Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public mairs)


Department of the Army
Auditor General, Department   of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management   and Comptroller)
Auditor General, Department of the Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management   and Comptroller)
Auditor General, Department of the Air Force


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
   Commander, Defense Energy Support Center
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                            24
                                                            Appendix D. Report Distribution




Non-Defense Federal Organizations and Individuals
Offlice of Management and Budget
General Accounting Office
   National Security and International   Affairs Division
       Technical Information Center

Chairman and ranking minority member of each of the following congressional.
committees and subcommittees:

   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental Affairs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information, and Technology,
      Committee on Government Reform and Oversight
   House Subcommittee on National Security, International mairs, and Criminal
      Justice, Committee on Government Reform and Oversight
   House Committee on National Security




                                              25
Part III - Management Comments
Defense Energy Support Center Comments



                                DEFENSE     LOGISTICS AGENCY
                                          HEAWUARTERS
                              0725 JOHN J. KINGMAN ROAD, SUITE 2533
                                 Fl BELVOIR. VIRGINIA 22DlW-6221




        MEMORANDUMFOR ASSISTANTI-NSPECTORGENERALFOR AUDITING,
                        DEPARTMENTOF DEFENSE


        SUBJECT: Procuring Fuel and GroundHandlingServices at CommercialAirports,
                 7LG-5030.01


        Enclosed are our comments to your request of I2 June 1998. Should you have any questions,
        please notify Annell Williams,767-6274.




        Encl                          ‘-‘+.    JEFFFUZY     GOLDSTEIN
                                                Chief (Aciing), Internal Review   Office


        cc:
        DLSC-BO
        DESC-I’
        DESC-Dl




                                                   28
                                                 Defense Energy Support Center Comments




Subject: Procuring Fuel and Ground Handliig Services at Commercial Airparts


Fiiding A: The prices in into-plaoe contracts were generally lower than the prices
available through tbe use of the AIR card and significantly lower than commercial prices
al commercial airports. However, the actual costcffective~ess of into-plane contmcts
ovez commercial alternatives could no1 be determined because DESC had not evaluated
the prime vendor strategy for procuring fuel at commercial airports. As a result. DESC
cannot be asslned that its acquisition strategy used for procuring fuel at commercial
airports provides the best value to DoD.


DLA Commenta: Concur. We agree that further information and additional analysis are
needed to fully analyze the feasibility, costs and benefits of using commercial companies
as prime vendors.


Finding B: Based on our review of Ihe 30 FBOs, we found no evidence that FBOs
increased prices for ground handling services as a means to compensate for lower fuel
prices negotiated under into-plane contracts. Although the 30 FBOs contacted had
different methodologies for determining prices for ground handling services, those
methodologies did not result in price increases to DOD.


DLA Comments:          Concur




DOD IG recommends that Ihe Commander, Defense Energy Support Center:


        I.     Issue a request for information to potential prime vendors to identify their
             ability to provide futed-base operator support at commercial airports.

       ?. Determine the feasibility of using the prime vendor stratec for providing
             fixed-base operator support at commercial airports.


DLA Comments:          Concur.


Disposition:     Action is ongoing. ECD for Recommendation I - July 3 I, I998
                                    ECD for Recommendation 2 - September 30,1998


Aetion Officer:      Shelby J. Yeakley, DESC-P, (703) 767-8501
Review: Richard R. Sninsky, DESC-DI,          (703) 767-9671
Approval: David P. Keller, RADM, SC, USN, Commander. DLSC
Coordination: Annell W. Williams. DDAI




                                               29
Audit Team Members
This report was prepared by the Readiness and Logistics Support Directorate,   Office of
the Assistant Inspector General for Auditing, DOD.

Shelton R. Young
Raymond D. Kidd
Evelyn R. Klemstine
John Yonaitis
Joseph W. Come’
Catherine M. Schneiter
Andrew T. Nerreter
Frank J. Kelly
